 

IN THE

Supreme Court of the United States

WILBUR-ELLIS COMPANY LLC,

Petitioner,
v.

BLUE BUFFALO COMPANY LTD., ET AL.,
Respondents.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
For the Eighth Circuit

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
6,376 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 8, 2019.

Colin Casey Ane

Wilson-Epes Printing Co., Inc.
